HHS/OIG, Audit -"Audit of Arizona's Medicaid Payments for Vaccines Obtained Through The Vaccines for Children
Program for Federal Fiscal Year 2003,"(A-09-04-00041)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Arizona's Medicaid Payments for Vaccines Obtained Through The Vaccines for Children Program for Federal
Fiscal Year 2003," (A-09-04-00041)
November 5, 2004
Complete
Text of Report is available in PDF format (548 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine, for Federal fiscal
year 2003, whether Arizona made unallowable Medicaid payments to providers for vaccines obtained through the Vaccines for
Children (VFC) program.  Arizona made unallowable Medicaid payments totaling $21,058 ($14,162 Federal share) to fee-for-service
(FFS) providers, which consisted of payments for vaccines obtained at no cost through the VFC program and duplicate payments
for vaccine administration.  In addition, the paid claims data that Arizona uses to establish Medicaid managed care
capitation rates included unallowable payments for VFC vaccines, payments above the administration cap, and duplicate payments
for vaccine administration.  We recommended that Arizona refund to the Federal Government $14,162 in
unallowable Medicaid payments to FFS providers; implement controls to identify and prevent (1) unallowable Medicaid payments
to FFS providers for VFC vaccines and (2) duplicate payments for vaccine administration; and implement controls to identify
and exclude unallowable Medicaid payments from the paid claims data used to establish managed care capitation rates.